AUDIT OF THE LIQUIDATION PROCESS AT
 THE NATIONAL GUARANTY PURCHASE
              CENTER



              Report Number: 9-08
          Date Issued: January 30, 2009




                 Prepared by the
           Office of Inspector General
       U.S. Small Business Administration
            Draft Report




            U.S. Small Business Administration
            Office Inspector General                Memorandum
    To:    Darryl K. Hairston                                           Date:   January 30, 2009
           Acting Administrator

           Eric R. Zarnikow
           Acting Associate Administrator, Office of Capital
           Access

            John A. Miller
            Director, Office of Financial Program Operations
           /s/ Original Signed
  From:     Debra S. Ritt
            Assistant Inspector General for Auditing

Subject:   Final Report on the Liquidation Process at the National Guaranty Purchase Center
           Report No. 9-08

            This report presents the results of our audit of the liquidation process for 7(a) loans
            at the National Guaranty Purchase Center. The Small Business Administration
            (SBA) guarantees loans that are made by participating lenders. Upon loan default,
            SBA authorizes participating lenders to continue servicing the account and, should
            liquidation and/or litigation become necessary, to completely liquidate or sue upon
            the loan instrument. During the liquidation process, the Center reviews and
            approves lender actions, as necessary. When no further recovery is expected on a
            loan, the Center also performs a comprehensive review of the lender’s wrap-up
            report, liquidation plan, and relevant documentation to determine if the lender
            materially complied with SBA’s liquidation requirements.

            The audit objectives were to determine if (1) the Center’s liquidation process,
            which culminates in loan charge-off, identified and addressed lender
            noncompliance with SBA’s procedures to mitigate losses, and (2) the Center
            adequately managed loans in liquidation status.

            To address the first objective, we reviewed 54 loans totaling $6.1 million. The
            sample was drawn from a universe of 7,120 loans totaling $696 million that had
            been charged off between October 1, 2005 and July 31, 2007. We reviewed
            information in SBA’s loan files and documentation from lenders and interviewed
                                                                                       2


SBA officials to determine whether the Center identified lender noncompliance
with SBA’s procedures during liquidation and/or charge-off. The loans examined
had received purchase reviews prior to the Center’s reengineering of the purchase
process in fiscal year (FY) 2008. Because we had previously identified
weaknesses in SBA’s purchase review process in the district offices and at the
Center before the purchase process was reengineered, we also examined lender
compliance with SBA’s loan origination and servicing requirements to determine
whether additional repairs and denials should have been made. Any additional
repairs or denials resulting from lender noncompliance in these areas would have
reduced the amount to be charged off, thereby minimizing SBA’s losses. While
the purchase process now in place at the Center may have corrected prior
deficiencies in the purchase process, it was necessary to review the origination and
servicing of the sampled loans that were purchased under the old process to ensure
the charged-off amounts were correct.

To address the second objective, we reviewed 60 loans totaling $15 million that
had not been charged off. These loans were statistically sampled from a universe
of 9,143 loans totaling $1.4 billion that were in liquidation between July 31, 2006
and July 31, 2007, and had not undergone a documented liquidation action by the
Center during this period. We interviewed lenders and SBA officials, and
reviewed SBA loan files, as necessary. For both loan samples, we reviewed data
contained in SBA’s Loan Accounting System, Guaranty Purchase Tracking
System, Centralized Loan Chron System and the Herndon Action Tracking
System.

We conducted our audit from June 2007 to September 2008, in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States. A listing of sampled loans is presented in Appendix I, and our
sampling methodology is provided in Appendix II.

BACKGROUND

Under Section 7(a) of the Small Business Act, SBA is authorized to provide
government-guaranteed loans to small businesses. The loans are made by
participating lenders under a Guaranty Agreement that requires them to originate,
service, and liquidate loans in accordance with SBA rules and regulations. When
loans default, lenders are required to take all liquidation actions and make efforts
to obtain the highest possible recovery. Lenders must seek prior written approval
by SBA when liquidation actions:

   • create a conflict of interest or confer a preference on the lender;
                                                                                                                      3


      • compromise the principal amount due or waive any claim against a
        borrower, guarantor, obligor, or standby creditor;

      • involve the acquisition of environmentally impaired property in the lender’s
        name, or any property in SBA’s name;
      • substantially alter the terms of the loan instrument;

      • transfer a loan to another lender, or sell or pledge more than 90 percent of a
        loan, or

      • release collateral having a cumulative value exceeding 20 percent of the
        original loan amount.1

When an SBA-guaranteed loan is purchased and no further recovery is expected,
SBA charges off the loan so that it can recognize the loss. SBA’s charge-off
process includes a detailed review of the lender’s actions regarding the disposition
of the loan collateral and pursuit of recovery from the guarantors, along with a
review of all related recoveries and expenses. The review is a critical step in the
liquidation process because it is the Agency’s last opportunity to identify and
recover payments that were improperly made as a result of lender noncompliance.
In the event of noncompliance, SBA may be released from its liability on a loan
guaranty, in full or in part, and may seek recovery from the lender.

In FY 2004, SBA centralized 7(a) purchase and liquidation reviews (excluding
Express and Community Express loans) at the National Guaranty Purchase Center
in Herndon, VA and significantly reduced staffing for these reviews. By FY 2006,
a significant backlog of 6,700 purchased loans in need of charge-off had accrued.
To resolve the backlog, SBA initiated a loan charge-off project, using contractors
to perform the reviews. During this effort, the Center completed charge-off
reviews on 3,949 loans totaling $372 million in SBA guaranties. Between October
2006 and July 2007, the Center charged off an additional 2,295 loans valued at
$246 million. As of May 2008, the Center had 17,051 loans in its liquidation
portfolio valued at $3 billion.

RESULTS IN BRIEF

Our audit identified $4 million of improper payments and uncollected amounts
resulting from lender noncompliance that was not addressed during purchase or
liquidation. Projecting the results from our samples, we estimate that the full
value of improper payments and uncollected amounts was at least $25.6 million.
For 21 of the 54 charged-off loans reviewed, the Center’s purchase and liquidation

1
    Prior SBA approval for this action is only required for lenders that do not participate in the Preferred Lender
    Program.
                                                                                                             4


processes did not identify or address lender deficiencies that merited repair or
denial of the guaranties for $1.4 million. These improper payments included
$581,773 that should have been identified during charge-off and $798,993 that
was missed in the purchase review process. We recommended recovery of all but
approximately $.2 million of these payments in a prior report, Audit of Six SBA
Guaranteed Loans.2 Based on the sample results, we estimate that SBA made at
least $23 million in improper payments on the 7,120 loans charged off between
October 1, 2005 and July 31, 2007.

The $581,773 in improper payments was associated with lender deficiencies on 9,
or 17 percent, of the loans reviewed. Of this amount, deficiencies totaling
$242,130 were not identified and $339,643 in deficiencies were not appropriately
addressed. These deficiencies included (1) unsupported sales of collateral, (2)
inappropriate repair decisions regarding collateral, (3) unsupported Care and
Preservation of Collateral (CPC) expenses, and (4) acceptance of inadequate offers
in compromise. Lenders also did not reconcile collateral at loan origination and
default, making it difficult to determine SBA’s losses.

When charging off the loans, the Center also did not reassess lender compliance
with loan origination and servicing requirements. While these areas are normally
assessed during purchase review, the OIG previously reported that significant
deficiencies existed in the Agency’s purchase review process. 3 Consequently, the
loans we reviewed also had loan origination and servicing deficiencies that
resulted in $798,993 of improper payments. Although SBA has since
reengineered its purchase process to correct many of the deficiencies the OIG
previously identified, approximately 4,200 loans that were purchased under the old
process have yet to be charged off.

The audit also disclosed that when the purchase or charge-off reviews identified
deficiencies, the Center did not always take appropriate action to mitigate its
losses. For example, the Center accepted a $206,612 repair on a $546,255 loan
guaranty that should have been denied in full based on the lender’s failure to
disclose that the loan was collateralized with contaminated property.

Many factors contributed to the inadequate loan reviews. Chief among them was
the lack of management emphasis on oversight based on the placement of the
Center under the Office of Capital Access. According to loan officers, Center
management promoted honoring the guaranties rather than holding lender’s
accountable for noncompliance. Additionally, contract staff hired to conduct

2
    OIG Report Number 8-18, Audit of Six SBA Guaranteed Loans, May 22, 2008.
3
    OIG Report Number 3-15, Audit of the Guaranty Purchase Process, March 17, 2003.
    OIG Report Number 7-23, Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National
    Guaranty Purchase Center, May 8, 2007.
                                                                                   5


charge-off reviews were not adequately trained or supervised. Because the
contractors were unfamiliar with SBA’s liquidation requirements, they frequently
missed deficiencies and did not seek additional support from the lenders when
documentation in the loan files was inadequate to demonstrate compliance.

Finally, our review of 60 inactive loans disclosed that 46, or 77 percent, were in
liquidation status for an average of 3 years and were not properly monitored to
determine whether (1) improper payments and liquidation proceeds due SBA had
been recovered, (2) loans were charged off or removed from the portfolio when
appropriate, or (3) outstanding loan balances were correct. As a result, the Center
did not timely recover approximately $2.6 million in improper payments and
liquidation proceeds, timely charge-off or remove 44 loans from the liquidation
portfolio, or correctly report the outstanding balances on two loans. Based on the
sample results, we estimate that at least 6,034 loans in liquidation as of July 31,
2007 had overstated values of at least $324 million.

Loans in liquidation status were not properly managed because the Center focused
most of its resources on purchase activities as it was insufficiently staffed and
under pressure by lenders to expediently pay guaranties. Further, SBA did not
have a portfolio management system to identify when actions were needed on
loans. Center officials have recently developed an in-house application to identify
and address loans requiring liquidation action. However, it excludes loans that
have not been purchased and lacks the proper controls to ensure data integrity.
Furthermore, adequate resources were not assigned to address loans needing
action.

We recommended that SBA establish a separate office outside of the Office of
Capital Access to be responsible for all lender oversight functions, including the
purchase and liquidation activities performed at the Center, or transfer these
responsibilities to the Office of the Chief Financial Officer. Additionally, we
recommended that SBA recover improper payments and uncollected liquidation
proceeds identified by the audit, ensure charge-off reviews are properly supervised
and all required documentation is obtained from lenders, and revise its SOP to
provide clearer guidance on collateral valuations. To better manage its liquidation
portfolio, we recommended that SBA further enhance the Center’s newly designed
portfolio management system to include the appropriate controls and ensure the
appropriate resources are assigned to address loans needing action. Finally, we
recommended that SBA perform periodic reviews of non-purchased loans in
liquidation to ensure they are removed from the portfolio when appropriate and
their outstanding balances are correct.

Management strongly disagreed with our recommendation to establish a separate
office for oversight outside of the Office of Capital Access. In addition, they
disagreed that removing non-purchased loans from the portfolio merited sufficient
                                                                                                       6


priority to redirect resources. They also made no commitment to recover the
improper payments identified by the audit, did not acknowledge insufficient
contractor oversight, and only partially agreed with our other recommendations.

RESULTS

The Center’s Liquidation Process Did Not Adequately Identify or
Address Lender Deficiencies

The charge-off review, which focuses on lender liquidation actions, is a critical
step in the liquidation process because it is the Center’s last opportunity to identify
improper payments made as a result of lender noncompliance. The Center staff,
however, missed liquidation deficiencies on 17 percent of the 54 loans we
reviewed, resulting in $581,773 in improper payments. Of this amount, $242,130
was not identified or addressed prior to loan charge-off and $339,643 resulted
from an inadequate repair on one loan. Further, when charging off these loans, the
Center did not identify $798,993 of improper payments associated with loan
origination and servicing deficiencies that were missed during the purchase
reviews of these loans. In total, approximately $1.4 million in deficiencies was
not identified during the charge-off reviews. Based on these results, we estimated
that at least $23 million in improper payments occurred on the 7,120 loans charged
off between October 1, 2005 and July 31, 2007. A listing of loans with lender
deficiencies in provided in Appendix III.

$242,130 in Material Lender Liquidation Deficiencies Were Not Identified or
Addressed Prior to Loan Charge-off

The audit disclosed that 8, or 15 percent, of the loans we reviewed had liquidation
deficiencies that should have resulted in repairs or denials totaling $242,130. As
shown in Table 1, the majority of deficiencies involved collateral sales that were
not adequately documented or supported in the SBA loan files.

                      Table 1. Material Liquidation Deficiencies in 8 Loans
                                                                   Improper Payments
                           Deficiency Area                           Associated with
                                                                      Deficiency*
        Collateral Sale                                                  $217,525
        Application of Care and Preservation of Collateral
        Expenses                                                           $1,520
        Offers in Compromise                                              $23,085

         Total Liquidation Deficiencies                                  $242,130
       Source: SBA loan files
       *Because loans had deficiencies in multiple areas, improper payments have been quantified for
        each deficiency and have not been double counted.
                                                                                        7


When an SBA loan defaults, the lender must make every effort to obtain the
highest possible recovery. In doing so, the lender must inventory, assess, and
properly justify the disposition of the loan collateral to ensure that the highest
possible recovery was achieved. However, we identified five loans where the
lender did not maximize recovery from the sale of collateral, causing $217,525 of
losses to SBA. This occurred, in part, because Center loan officers were reluctant
to challenge collateral recoveries obtained by lenders as SOP 50 51 2 does not
provide accurate liquidation values for many types of collateral. For example, the
SOP establishes that all machinery and equipment be assessed at 50 percent of the
fair market value, regardless of the actual rate of recovery on the foreclosed
collateral. Consequently, motor vehicles and restaurant equipment were equally
assessed at a 50-percent recovery rate, even though restaurant equipment generally
has a much lower actual rate of recovery. Taking this into account, it was difficult
for loan officers to determine whether lenders maximized recoveries and to
identify amounts that should have been repaired. Therefore, SBA will need to
revise liquidation recovery rates in the SOP to reflect the forced sale liquidation
values related to the various types of collateral used to secure SBA loans.

The Center Did Not Take Appropriate Action to Address Liquidation Deficiencies
on One Loan

The Center also did not make the appropriate repair decision on one loan, resulting
in a $339,643 loss to SBA. SOP 50 51 (2) states that SBA should not agree to a
repair if the settlement amount is insufficient to compensate the Agency for its
losses or if the lender’s actions are sufficiently serious that a full denial of liability
is warranted. Despite this requirement, the Center accepted a repair that was
insufficient to compensate the Agency for its loss.

The $546,255 loan guaranty should have been denied in full because the lender did
not disclose that the loan was collateralized by contaminated property. While the
initial purchase review conducted in an SBA District Office recommended full
denial of the guaranty, in the spirit of cooperation with the lender, the Center
accepted a repair of $206,612, resulting in a $339,643 loss to SBA. During the
post-purchase and charge-off reviews, the Center did not seek recovery of the
entire guaranty from the lender. Therefore, we are considering this to be a
deficiency in the Center’s liquidation process.
                                                                                                                 8


The Center’s Loan Charge-Off Reviews Did Not Revisit Lender Origination and
Servicing Actions

In March 2003 and May 2007,4 the OIG reported that the purchase process that
was in place at the district offices and the Center when it was first established did
not identify many lender compliance issues, which resulted in significant losses
due to improper payments. Despite the Center’s awareness of the deficiencies, it
did not reassess lender compliance with loan origination and servicing
requirements at loan charge-off for loans purchased prior to the reengineering of
the Center’s purchase process. Consequently, the Center missed $798,993 in
improper payments that were associated with 13, or 24 percent, of the 54 charged-
off loans reviewed. For example:

      • One loan, which defaulted less than 6 months after disbursement, exhibited
        obvious indications of fraud that went undetected by the lender and SBA.
        The support accepted by the lender for equity injection consisted of cashier
        checks that were issued after loan disbursement and a bank-issued letter
        that appeared to have been altered. Additionally, the appraisal of the real
        property collateral appeared to be significantly overstated. Had these issues
        been further investigated during charge-off, a $639,717 loss to SBA would
        have been prevented.

      • One lender provided documentation that only supported $21,000 of the
        required $61,750 of the borrower’s equity injection. However, the loan
        officer gave the lender credit for an additional $20,000 equity injection
        based on a document that did not show the source of the deposit or identify
        the account to which the funds had been deposited.

      • Another lender disbursed $21,000 of loan proceeds for the purchase of
        inventory directly to the borrower rather than the vendors via joint payee
        checks, as required by SBA Form 1050, Settlement Sheet. There was no
        evidence that the inventory was ever purchased.

Had the Center implemented the appropriate controls to revisit common
origination and servicing risk areas during the charge-off reviews, improper
payments could have been identified and recovered.
Management Promotes Honoring Guaranties Rather than Holding Lenders
Accountable for Noncompliance

Management placed a higher priority on its lender relations by honoring guaranties
rather than holding lenders accountable for compliance with SBA requirements.

4
    OIG Report Number 3-15, Audit of the Guaranty Purchase Process, March 17, 2003; and OIG Report Number 7-23,
    Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National Guaranty Purchase Center, May 8,
    2007.
                                                                                       9


This and prior OIG audits have identified multiple instances where the Center was
reluctant to deny or repair guaranties when lenders were clearly in violation of
Agency requirements. Management’s focus on lender relations also resulted in the
Center directing the majority of its resources to purchase activities. For example,
the Center allowed loans that were purchased from the secondary market to sit for
many years without a post-purchase review, until the backlog of loans awaiting
review had grown to 3,500 by the end of March 2007. As discussed later in this
report, loans also sat in liquidation for several years without being monitored or
properly managed by the Center.

The Center’s priorities are determined by the Office of Financial Assistance,
(OFA), which resides within the Office of Capital Access (OCA). These two
offices, however, have responsibilities that conflict with the oversight role of the
Center. OFA and OCA act as advocates for small businesses and the lending
companies that provide SBA guaranteed loans. Its primary goal is to grow the
Agency’s loan portfolio and to maintain good lender relationships.

In contrast, the Center is responsible for timely processing guaranty purchase
requests, providing oversight of lenders during loan liquidation, and timely
charging off loans. Both the guaranty purchase and charge-off processes are
oversight activities that involve evaluating lender compliance with SBA’s
requirements and pursuing the denial or repair of guaranties when noncompliance
is found. However, these activities have been adversely influenced in the past by
OCA’s emphasis on maintaining lender participation and responding timely to
lenders’ purchase requests. The recent decline in lender participation will only
serve to increase the conflict between OCA’s role as an advocate for lenders and
the Center’s mission of providing oversight and enforcing lender compliance.
Therefore, the Center’s placement within OFA, and ultimately OCA, has left it
without the organizational independence needed to effectively execute its
oversight responsibilities.

Contractor Staff Conducting the Charge-Off Reviews Were Not Properly Trained
or Supervised

In addition to the lack of management emphasis on oversight, we found that
appropriate management attention was not given to training and supervising the
contractors performing the majority of the charge-off reviews to ensure that lender
compliance was appropriately evaluated, as required by Agency procedures. In
March 2006, SBA began using an outside firm to perform reviews of loans
awaiting charge-off. The contractors reviewed many of the 7,120 loans in our
audit universe. These inexperienced contractors did not receive formal training
and learned about SBA’s liquidation requirements by reading Agency procedures
and asking questions of Center officials as they reviewed files. Interpreting
                                                                                    10


Agency procedures was also difficult given that the procedures were extensive,
complex, and not always clearly conveyed.

While the Center realized that the contractor staff was unfamiliar with the
Agency’s requirements, it did not properly review their work to correct mistakes.
Contractors were assigned to senior SBA loan officers who acted as mentors, but
the contractors stated that these mentors had their own responsibilities and
sometimes were not helpful. Additionally, our audit did not find evidence that
contractor’s charge-off findings were questioned or reversed by Center officials,
even when material lender noncompliance was apparent. Because the contractors
were not properly supervised, charge-off findings were sometimes based on
incomplete documentation and unsupported lender statements. To address these
issues, the Center will need to ensure that charge-off reviews are properly
supervised and all required documentation is obtained.

The Center Did Not Adequately Manage its Liquidation Portfolio

SOP 50 51 (2) requires quarterly reviews of loans more than 180 days in
liquidation status. These reviews help ensure that (1) improper payments and
liquidation proceeds due SBA have been recovered, (2) loans are charged off or
removed from the portfolio when appropriate, and (3) outstanding loan balances
are correct. However, since the liquidation function was centralized in FY 2004,
the Center has not adequately monitored loans in liquidation. For instance, the
Center had not documented a liquidation action for 1 year or more on 9,143 loans
that were in liquidation status as of July 31, 2007. These loans had been in
liquidation for an average of 3 years with many of the loans in liquidation for 6
years or more.

Additionally, many of the loans purchased from the secondary market had not
received post-purchase reviews, even though as much as 7 years had passed since
the date of purchase. This review must take place before SBA can charge-off the
loan. As of March 2007, the Center had a backlog of approximately 3,500 loans
requiring post-purchase reviews. Since that time, the Center has significantly
reduced the backlog, and expects it to soon be resolved.

Of the 60 loans we reviewed, 46, or 77 percent, were in liquidation status for an
average of 3 years and were not properly monitored. Also, 19 of the 25 loans
purchased from the secondary market did not receive timely post-purchase
reviews. As a result, the Center did not:

   • Timely recover $2.6 million in improper payments and liquidation
     proceeds;
                                                                                           11


   • Timely charge-off or remove 44 of the 60 loans from the liquidation
     portfolio; or

   • Correctly report the outstanding balances on two loans.

Based on the sample results, we estimate that at least 6,034 of the 9,143 inactive
loans, valued at $1.4 billion, that were in liquidation as of July 31, 2007, had
overstated values of at least $324 million in SBA’s Loan Accounting System.

The Center Did Not Timely Pursue Over $2.6 Million in Recoveries of Improper
Payments and Liquidation Proceeds

As shown in Table 2 below, the Center did not recover over $2.5 million of
improper payments made on 5 loans or pursue almost $68,000 of liquidation
proceeds owed to SBA on 4 loans.

                            Table 2. Loans Needing Recovery

                           Loan Number              Amount
                      Improper Payments
                      [FOIA Ex. 2]                        $79,622
                      [FOIA Ex. 2]                       $810,518
                      [FOIA Ex. 2]                        $41,697
                      [FOIA Ex. 2]                       $733,231
                      [FOIA Ex. 2]                       $881,333
                         Subtotal                      $2,546,401
                      Liquidation Proceeds Owed
                      [FOIA Ex. 2]                           $670
                      [FOIA Ex. 2]                        $26,328
                      [FOIA Ex. 2]                        $30,000
                      [FOIA Ex. 2]                        $10,785
                         Subtotal                         $67,783
                      Total                             2,614,184
                     Source: SBA’s Guaranty Purchase Tracking System, Centralized Loan Chron
                             System, and Loan Accounting System

Loan officers had documented material lender deficiencies justifying repair or
denial of the SBA guaranty on the five loans, but the Center did not adequately
pursue recovery from lenders for many years. For example, the Center did not
timely complete a post-purchase review and pursue an $881,333 improper
payment made on one loan because the lender was uncooperative in submitting
requested documents.

The Center also did not collect outstanding liquidation proceeds on four loans.
For example, the Center documented that lenders had not submitted SBA’s share
of liquidation proceeds totaling $56,328 on two loans, but did not enforce
collection. In one case, the liquidation proceeds remained uncollected for over 4
                                                                                                                  12


years. In response to our audit, however, the lender submitted the proceeds to
SBA. For the remaining two loans, the Center neither identified nor collected
$11,455 of liquidation proceeds.

The Center Did Not Timely Charge Off or Remove Loans from the Liquidation
Portfolio

The Center did not timely charge off or remove 44 of the 60 loans we reviewed
from the liquidation portfolio and incorrectly reported the balances on two
additional loans. Of the 44 loans, 23 loans were not charged off after lenders
determined that no further recoveries were expected. For nearly 75 percent of
these loans, charge-off was delayed by 3 or more years. When charge-off occurs,
SBA makes an accounting adjustment, removing the loan balance from accounts
receivable and recognizing it as a loss. However, because these 23 loans were
reported as being in liquidation, SBA’s accounts receivable balance was
overstated, and losses were understated, by $5.1 million as of July 31, 2007.
Additionally, untimely charge-offs can result in delayed referral of borrowers to
the Department of Treasury, in violation of the Debt Collection Improvement Act.

We also identified another 21 loans that should not have been included in the
liquidation portfolio. These were loans that had not been purchased and either
exceeded their maturity by 180 days,5 had been fully paid by the borrowers, or the
lenders had no intention of requesting guaranty purchase. As a result, the
inclusion of these loans distorts the accuracy of the number and value of loans in
the liquidation portfolio. Furthermore, because lender risk ratings are calculated
using the “loan status” and “outstanding loan balance” reported in the Loan
Accounting System, lender risk ratios may be distorted and Agency responses to
Congressional and Freedom of Information Act requests may be inaccurate.
Therefore, the balances of these loans should be removed from SBA’s accounting
records. Finally, the Center did not identify overstated balances on two loans that
occurred as a result of the misapplication of loan payments.

Based on the untimely charge-offs and inaccurate reporting of loan status and
balances identified in the sample, we estimate that 6,034 of the 9,143 inactive
loans, valued at $1.4 billion, that were in liquidation as of July 31, 2007, had
overstated values of at least $324 million in SBA’s Loan Accounting System.




5
    13 CFR 120.524(a)(8) states that SBA is released from its guaranty if the lender failed to request purchase within
    180 days after maturity of the loan.
                                                                                  13


SBA Lacked Adequate Staffing and a Portfolio Management System to Identify
Actions Needed on Loans in Liquidation

The Center did not take action on the loans in liquidation primarily because
staffing had been reduced by 85 percent when the liquidation activity was
centralized. When purchase and liquidation operations were transferred to the
Center, only 40 of the 266 individuals performing these functions were assigned to
the Center. Staffing levels remained low until the FY 2008 reengineering of the
purchase process. The staff reduction, combined with pressure from the lenders to
expediently pay guaranties, resulted in the Center devoting the majority of its
resources to guaranty purchase activities. Because fewer staff worked on
liquidation activities, loans were not assigned to a single loan officer for
monitoring throughout the loan’s liquidation cycle as they had been in the past.
This made monitoring of the Center’s liquidation portfolio more difficult and
increased the opportunity for loans to be overlooked.

Additionally, the Center lacked an adequate automated system to alert managers of
actions needed on loans. While the Center maintained a database to track actions
taken on loans in liquidation, it only accounted for purchased loans and did not
adequately track or report on actions needed. Center officials acknowledged that
they lacked the tools and resources necessary to manage the liquidation portfolio
and have recently developed an in-house application to identify and address loans
requiring liquidation actions. We believe the new application could provide the
Center with the information needed to manage its liquidation portfolio, but the
application does not include non-purchased loans and needs proper controls to
ensure data integrity. Furthermore, the appropriate resources need to be assigned
in order to address loans needing action.

In May 2007, SBA issued a regulation directing lenders to liquidate loans prior to
requesting guaranty purchase, which would require the Center to review most
liquidation actions at the time of purchase. However, many loans are exempt from
this requirement, including those purchased from the secondary market, those with
real property collateral, and those involving borrowers that have filed for
bankruptcy protection and at least 60 days has elapsed since the last full
installment payment. Consequently, management of the liquidation portfolio will
continue to be an important function of the Center.

RECOMMENDATIONS

We recommend that the Acting Administrator:

   1. Establish an office within the Agency that is separate from the Office of
      Capital Access to be responsible for all lender oversight functions,
                                                                                       14


       including those performed at the National Guaranty Purchase Center, or
       transfer these responsibilities to the Office of the Chief Financial Officer.

We recommend that the Director, Office of Financial Program Operations:

   2. Recover approximately $2.8 million of improper payments and liquidation
      proceeds from lenders on the 24 loans identified in Appendices IV and V.

   3. Direct the Center to ensure that charge-off reviews are properly supervised
      and all required documentation is obtained from lenders.

   4 Revise liquidation recovery rates in SOP 50 51 (2) to reflect the forced sale
     liquidation values related to the various types of collateral used to secure
     SBA loans.

   5. Further enhance the Center’s newly designed portfolio management system
      to include the appropriate controls and ensure the appropriate resources are
      assigned to address loans needing action.

   6. Perform periodic reviews of non-purchased loans in liquidation to ensure
      they are removed from the portfolio when appropriate and their outstanding
      balances are correct.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On December 17, 2008, we provided a draft of this report to SBA for comment.
On January 16, 2009, SBA submitted its formal comments, which are contained in
their entirety in Appendix VI. Management disagreed with several of the report
findings and emphasized that improvements made in the purchase process have
addressed many of the issues identified in the report. Additionally, OCA
disagreed with recommendations 1 and 5, but proposed alternative actions; neither
agreed nor disagreed with recommendations 2 and 4; and partially agreed with
recommendations 3 and 6. Specific management comments on the report findings
and recommendations, and our evaluation of them, are summarized below.

Management Comments

Comment 1

Management stated that the findings and recommendations in the report were
similar to those mentioned in six other audits of the Center, did not reflect the state
of the Center today, and revealed nothing new that OCA and OFA management
                                                                                15


had not already acknowledged and set about to correct. OCA believes it took
significant and successful steps to address staffing and management issues at the
Center, with a reengineering effort focused on transforming the Center’s processes
and operations that began in July 2007.

OIG Response

We disagree with management’s assessment that the audit was similar to previous
OIG audits and did not identify new issues. Previous audits of the Center focused
on the purchase review process, while this audit evaluated the Center’s liquidation
process. As a result, the audit revealed issues with the Center’s liquidation
process, including improper payments resulting from inappropriate collateral sales,
unsupported CPC expenses, and acceptance of an inadequate offer in compromise.
Furthermore, our audit revealed that SBA did not properly supervise contractor
liquidation reviews, monitor loans in liquidation to determine whether recoveries
due SBA had been submitted, and timely charge off or remove loans from the
portfolio when appropriate to ensure outstanding loan balances were correct.
None of these issues were discussed in previous reports.

Although this report addresses the liquidation process, management directed its
comments almost exclusively to improvements made in purchase operations,
which was outside the scope of the audit. Consequently, management incorrectly
believes that it has corrected many of the problems identified by the audit. While
we understand that some of the issues we identified can be addressed through an
improved purchase process, others are specific to the liquidation process, such as
collateral liquidation, and need to be addressed through stricter vigilance in
managing the liquidation portfolio and conducting charge-off reviews.

What we believe may be similar to previous audits is our ongoing concern with
lender oversight functions being organizationally placed within OCA, whose
mission is to increase small business access to capital through expanding lender
participation. We previously reported our concern that the placement of the Office
of Credit Risk Management under OCA presented a potential conflict between the
desire to encourage lender participation in SBA loan programs and the need to
evaluate lender performance and take enforcement action. The Center’s
placement under OFA presents a similar conflict of interest issue.

Comment 2

OCA took exception to several statements in the report that assert that
management does not emphasize oversight and promotes honoring guaranties over
compliance and accountability. It also believes the assertion is based on anecdotal
evidence rather than fact. Management stated that OCA recently reorganized,
separating financial program operations (including Center operations) from OFA,
and believes that communication between these key offices can only be achieved
                                                                                  16


if housed within OCA. Management also believes that the OIG made an
unsubstantiated inference that a different organizational location for these
functions would overcome problems that fundamentally arose from a lack of
adequate resources.

OIG Response

We disagree that our statements are based on anecdotal evidence. Instead they
stem from the Center’s continued reluctance to pursue recovery of improper
payments when there is clear evidence of lender noncompliance, and the
investment of resources in pre-purchase activities that provide lenders with
increased capital at the expense of enforcing lender compliance. For example,
from 2003 to 2008, we recommended that that SBA recover over $15 million
based on lender noncompliance. OCA delayed resolution of many of these cases.
In one case, OCA’s delay caused the statute of limitations to be exceeded, thereby
eliminating the opportunity for recovery. In our audit, we also reported that
although an SBA loan officer originally recommended full denial of a loan
guaranty, in the spirit of cooperation with the lender, the Center accepted an
inadequate repair, resulting in a $339,643 loss to SBA. Additionally, loan officers
had documented material lender deficiencies justifying repair or denial of
guaranties on five loans, but did not pursue recoveries from the lenders.

Furthermore, when faced with staffing constraints, management placed a higher
priority on conducting pre-purchase loan reviews rather than post-purchase
reviews of loans that were at higher risk of improper payments. This approach
ensured that SBA guaranties were honored timely so that lenders could be
promptly paid, but delayed reviews of loans purchased from the secondary market
to identify improper payments.

Comment 3

Management stated that our report encouraged SBA to focus significant recovery
efforts on old cases where many of the lenders believed any obligation to SBA had
been satisfied. Management believes that recent reengineering of the purchase
process at the Center demonstrates OCA’s commitment to quality standards. They
indicated that the last phase of this effort was completed in November 2008 and
included a thorough review of every loan in the liquidation inventory to assess
current status, identify loans eligible for charge-off, and record information in the
Liquidation Management System.

OIG Response

We agree that our report encourages SBA to seek recovery of improper payments
on guaranties which were purchased inappropriately. Many of these loans are old
because they sat for years at the Center without a purchase or charge-off review.
                                                                                 17


The Improper Payment Act of 2002 and OMB’s implementation guidance requires
all Federal agencies to identify improper payments and to take actions to recover
them. In its comments, OCA recognized it must balance the need for lender
supervision with providing access to capital for small businesses. However, if
management was achieving this balance, we would expect to see a more concerted
effort by OCA to recover improper payments and less of a focus on meeting lender
demands. OCA’s reluctance to pursue improper payments supports our position
that OCA sees its primary role as that of lender advocate, rather than a steward of
taxpayer funds.

We commend management for recently completing a thorough review of every
loan in the Center’s liquidation inventory. This is an important first step in
ensuring compliance. However, the achievement, in itself, is not sufficient. We
hope that, if improper payments are identified, OCA would take the appropriate
steps to recover them, despite the age of the loans, especially where the improper
payment is significant.

Comment 4

Management stated that it secured funding for several contractor loan specialists
with liquidation experience to work on-site at the center and used personnel with
extensive liquidation experience from two centers and several district offices to
perform charge-off reviews. Management has stated that it provided both
classroom instruction and hands-on training to contractors and closely monitored
their progress. Therefore, management believes it is not accurate to say the staff
was inadequately trained or supervised.

OIG Response

We disagree that management provided appropriate oversight and training of
contractor employees. According to the contract staff we interviewed, many of the
contractors did not have commercial lending or financial backgrounds and claimed
they learned how to perform charge-off reviews by reading Agency procedures
and asking questions as they reviewed files. Contractors also told us that while
mentors were assigned to assist them, these mentors were not always helpful. If
management had properly supervised the contractors, it would have identified the
deficiencies we noted in the audit. Finally, we saw no evidence that charge-off
findings made by the contract staff were ever questioned or reversed by Center
officials, even when material lender noncompliance was apparent.

Comment 5

Management stated that it was aware of the importance of accurately classifying
loans and complying with the Debt Collection Improvement Act and therefore, in
                                                                               18


October 2005, began a concerted effort to review and properly classify all
purchased loans that were considered ready for charge-off.

OIG Response

While we commend OCA on its effort to properly classify all purchased loans that
were ready for charge-off between October 2005 and September 2006, we
reviewed 60 loans in liquidation as of July 2007, and found that most were not
properly classified. Additionally, we found that loans were not timely charged off
and recoveries and improper payments remained uncollected. Therefore, we
continue to support our position that OCA has not rectified the problem and that
loans in liquidation must be regularly monitored to ensure proper loan
classification and compliance with the Debt Collection Improvement Act.

Recommendation 1

Management’s Comments

Management strongly disagreed and offered an alternative action for this
recommendation. It believes the recent reorganization of OCA helps to bolster
management and leadership in its operations and oversight functions by separating
the Center from OFA and placing it within the newly established Office of
Financial Program Operations (OFPO).

OIG Response

We commend OCA for removing Center operations from OFA, where it clearly
conflicted with OFA’s mission. While we have reservations about whether OCA
will provide the resources and management direction needed to recover improper
payments where warranted, OCA’s action is sufficient to address this
recommendation at this time. We will review Center activities in the future to
determine whether placement of the Center under OFPO provides the
organizational resources and independence needed to effectively execute the
oversight responsibilities of the Center.

Recommendation 2

Management Comments

Management stated it would review the underlying loans and obtain recoveries
where appropriate, and will provide the OIG a summary of its decisions.

OIG Response

Management’s comments were not responsive to this recommendation. On
October 21, 2008, we provided the Center detailed deficiency summaries of the 24
                                                                                19


loans, which we believe permitted it sufficient time to make a recovery
determination on the loans. We also conducted numerous meetings with Center
officials to discuss our findings and answer questions, and revised our report
where necessary Based on these discussions, the Center agreed with the majority
of our findings and to pursue recoveries. Therefore, it is unclear why management
now believes it needs more time to make a decision. We also believe that OCA’s
response exemplifies its reluctance to pursue recovery when there is clear
evidence of noncompliance and its continuing emphasis on honoring guaranties
over accountability. Management also needs to provide a target date for taking
recovery actions.

Recommendation 3

Management Comments

Management indicated that actions have already been taken to ensure charge-offs
are properly supervised and that the required documentation is obtained from
lenders.

OIG Response

While management has trained Center staff, as discussed previously, it has not
taken sufficient actions to ensure that contract staff are properly supervised.
Therefore, we do not believe that management’s comments fully address the
recommendation. Management also needs to provide a target date to sufficiently
address this recommendation.

Recommendation 4

Management Comments

Management stated that it will consider revising forced sale liquidation recovery
rates in SOP 50 51, which is currently being re-written.

OIG Response

Although management agreed to this recommendation during the exit conference,
its formal comments do not address what actions it plans to take to address the
recommendation. Consequently, we consider management’s comments to be
unresponsive. Management also needs to provide a target date to sufficiently
address this recommendation.
                                                                                 20


Recommendation 5

Management Comments

Management stated there would not be a significant development effort on the
Herndon portfolio management system because it is reengineering its Loan
Liquidation Tracking System (LLTS) through the Loan Management Accounting
System (LMAS) project. However, management agreed to add additional security
protocols to the current system. As an interim measure, management stated it is
improving its lender liquidation portfolio reporting process through a new project
started in January 2009, which will help place the reporting burden on the
servicing lenders instead of Center staff.

OIG Response

Management disagreed with the recommendation to further enhance the current
system, but proposed an alternative solution. As the LMAS project is not
expected to be completed until 2012, waiting for the modernization of LLTS does
not address the current system’s shortcomings. While management offered an
interim measure, it did not provide sufficient detail on how this measure will
correct the identified problems. Furthermore, target dates for completion were not
provided.

Recommendation 6

Management Comments

Management agreed to perform periodic data analysis on non-purchased loans in
its portfolio to check for loans that should be removed. However, management
stated it would be a lower priority activity and loans will be removed as resources
allow.

OIG Response

Management partially agreed with the recommendation, but did not specify how
and when the periodic reviews will be performed and loans removed from the
portfolio. Management needs to provide a target date to sufficiently address this
recommendation.

ACTIONS REQUIRED

Because your comments did not fully address recommendations 2, 3, 4, 5, and 6,
we request that you provide a written response providing additional details and
target dates for implementing the recommendations within 2 weeks from issuance
of this report. If a timely response is not received, these recommendations will be
                                                                                  21


pursued through the audit resolution process and reported in our Semiannual
Report to Congress as lacking a management decision.

We appreciate the courtesies and cooperation of the OCA, OFA, and Center
officials during the audit. If you have any questions concerning this report, please
call me at (202) 205-[FOIA Ex. 2], or Debra Mayer at (202) 205-[FOIA
Ex. 2].
                                                                                 22


APPENDIX I. SAMPLED LOANS

Loans Charged Off

                                                       Amount
            Loan                           Guaranty                Charge-Off
     #                        Borrower                 Charged
           Number                            Paid                  Fiscal Year
                                                         Off

     1   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $74,254     $51,249      2006
     2   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $72,047      $2,360      2006
     3   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $749,701    $339,643      2006
     4   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $182,635    $161,935      2006
     5   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $174,132    $174,132      2007
     6   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $537,217    $534,110      2007
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
     7                                       $29,321     $29,321      2007
     8   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $51,982     $51,982      2006
     9   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $29,693     $23,085      2006
    10   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $106,831     $61,261      2006
    11   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $65,874     $65,874      2006
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    12                                       $87,373     $87,373      2006
    13   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $172,241    $172,241      2006
    14   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $96,429     $53,334      2006
    15   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $102,336    $102,336      2006
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    16                                       $81,738     $91,846      2007
    17   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $51,287     $51,287      2007
    18   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $63,175     $54,241      2007
    19   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $140,827     $60,543      2006
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    20                                       $16,302     $16,302      2007
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    21                                       $96,259     $89,767      2006
    22   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]      $8,045      $8,045      2006
    23   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $50,577     $50,577      2006
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    24                                      $133,713    $133,713      2006
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    25                                       $38,714     $38,714      2006
    26   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]    $224,512    $224,512      2006
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    27                                       $25,385     $22,148      2006
    28   [FOIA Ex. 2]   [FOIA Ex. 4 & 6]     $65,101     $65,101      2006
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    29                                      $145,006    $123,065      2006
         [FOIA Ex. 2]   [FOIA Ex. 4 & 6]
    30                                        $3,950      $3,950      2006
                                                                                                 23


                                                                      Amount
                    Loan                                Guaranty      Charged      Charge-Off
      #                              Borrower
                   Number                                 Paid          Off        Fiscal Year

      31     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]           $139,831     $139,831       2006
             [FOIA Ex. 2]      [FOIA Ex. 4 & 6]
      32                                                   $62,329      $62,329       2006
      33     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $54,572      $54,572       2006
      34     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $77,121      $77,242       2006
      35     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]           $156,929     $156,929       2006
      36     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $26,094      $26,094       2007
      37     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $40,000      $40,000       2006
      38     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]           $101,078      $87,799       2006
             [FOIA Ex. 2]      [FOIA Ex. 4 & 6]
      39                                                  $558,003     $550,950       2006
      40     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]           $193,330      $42,703       2007
             [FOIA Ex. 2]      [FOIA Ex. 4 & 6]
      41                                                   $79,944      $79,944       2006
      42     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $48,361      $48,361       2006
      43     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]           $127,015     $127,015       2006
      44     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]           $415,014     $415,014       2006
      45     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]           $749,412     $639,717       2007
             [FOIA Ex. 2]      [FOIA Ex. 4 & 6]
      46                                                   $10,693       $4,085       2006
      47     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $44,944      $44,944       2006
      48     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $22,616      $22,616       2007
      49     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]           $371,472     $267,656       2007
      50     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $41,776      $41,776       2006
             [FOIA Ex. 2]      [FOIA Ex. 4 & 6]
      51                                                  $176,377     $107,754       2007
             [FOIA Ex. 2]      [FOIA Ex. 4 & 6]
      52                                                   $52,816      $52,816       2006
      53     [FOIA Ex. 2]      [FOIA Ex. 4 & 6]            $33,258      $33,258       2006
             [FOIA Ex. 2]      [FOIA Ex. 4 & 6]
      54                                                   $84,773       $64,292      2007
             Totals                                     $7,344,415    $6,131,744


Loans in Liquidation

                                             # of Years Spent In-    SBA Share of Outstanding
       Loan           Date Transferred to      Liquidation as of       Gross Amount as of
#     Number             Liquidation               7/31/2007                7/31/2007
1   [FOIA Ex. 2]                1/12/2000              7.6                            $46,133
2   [FOIA Ex. 2]                 4/6/2000             7.3                            $260,677
3   [FOIA Ex. 2]                9/11/2000              6.9                            $45,559
4   [FOIA Ex. 2]                3/23/2000             7.4                            $483,689
5   [FOIA Ex. 2]                 5/3/1999             8.2                            $656,935
6   [FOIA Ex. 2]               11/16/1999             7.7                             $10,722
7   [FOIA Ex. 2]                8/11/1997             10.0                            $10,284
8   [FOIA Ex. 2]                8/10/2000              7.0                            $13,406
9   [FOIA Ex. 2]                 9/7/1999              7.9                            $37,139
                                                                                            24


                                          # of Years Spent In-   SBA Share of Outstanding
        Loan        Date Transferred to
#                                           Liquidation as of         Gross Amount
       Number          Liquidation
                                                7/31/2007               7/31/2007
10   [FOIA Ex. 2]            11/10/1999            7.7                            $22,800
11   [FOIA Ex. 2]              7/5/2000            7.1                           $125,033
12   [FOIA Ex. 2]             5/14/1998             9.2                           $57,498
13   [FOIA Ex. 2]            12/14/2000            6.6                           $748,037
14   [FOIA Ex. 2]            12/15/1998            8.6                            $35,927
15   [FOIA Ex. 2]              8/8/2000             7.0                           $26,497
16   [FOIA Ex. 2]             11/8/2000             6.7                           $16,714
17   [FOIA Ex. 2]             9/30/1999             7.8                           $62,006
18   [FOIA Ex. 2]             3/31/1998            9.3                           $171,773
19   [FOIA Ex. 2]             1/29/1997            10.5                          $178,627
20   [FOIA Ex. 2]             7/10/2000             7.1                           $63,290
21   [FOIA Ex. 2]             1/26/2000             7.5                           $79,622
22   [FOIA Ex. 2]             4/28/2000             7.3                           $15,000
23   [FOIA Ex. 2]             5/10/1999             8.2                           $66,250
24   [FOIA Ex. 2]            12/15/1999            7.6                           $810,518
25   [FOIA Ex. 2]            10/25/2000            6.8                           $674,279
26   [FOIA Ex. 2]             7/20/2000            7.0                           $743,285
27   [FOIA Ex. 2]             8/18/2000            7.0                           $693,892
28   [FOIA Ex. 2]              5/8/2000            7.2                           $506,196
29   [FOIA Ex. 2]             8/11/2000            7.0                           $613,338
30   [FOIA Ex. 2]             4/21/2003             4.3                           $70,136
31   [FOIA Ex. 2]             3/12/2004             3.4                           $22,541
32   [FOIA Ex. 2]             5/10/2005             2.2                           $19,846
33   [FOIA Ex. 2]             7/28/2006             1.0                           $70,840
34   [FOIA Ex. 2]              5/8/2006             1.2                                $1
35   [FOIA Ex. 2]             3/16/2005            2.4                           $162,315
36   [FOIA Ex. 2]              3/2/2005            2.4                           $120,232
37   [FOIA Ex. 2]             4/18/2006            1.3                           $141,077
38   [FOIA Ex. 2]            12/12/2005            1.6                           $480,576
39   [FOIA Ex. 2]            10/24/2005            1.8                            $24,115
40   [FOIA Ex. 2]             7/20/2004            3.0                           $103,889
41   [FOIA Ex. 2]            10/22/2002            4.8                            $32,317
42   [FOIA Ex. 2]             1/26/2006             1.5                           $84,205
43   [FOIA Ex. 2]            12/26/2002            4.6                            $14,939
44   [FOIA Ex. 2]              5/7/2001             6.2                           $16,565
45   [FOIA Ex. 2]             9/27/2002            4.8                           $190,244
46   [FOIA Ex. 2]             11/4/2005             1.7                          $492,347
47   [FOIA Ex. 2]             1/17/2001             6.5                           $30,821
48   [FOIA Ex. 2]             4/26/2005             2.3                           $66,020
49   [FOIA Ex. 2]             12/1/2003             3.7                           $62,801
50   [FOIA Ex. 2]              2/5/2001             6.5                           $44,418
51   [FOIA Ex. 2]             9/17/2001             5.9                           $41,697
52   [FOIA Ex. 2]             10/1/2004             2.8                          $367,769
53   [FOIA Ex. 2]             8/31/2005            1.9                           $113,650
54   [FOIA Ex. 2]             3/23/2006             1.4                           $47,969
55   [FOIA Ex. 2]              3/8/2005            2.4                           $932,141
56   [FOIA Ex. 2]             4/27/2006            1.3                           $818,279
57   [FOIA Ex. 2]             1/21/2003            4.5                           $760,160
                                                                                             25


                                          # of Years Spent In-   SBA Share of Outstanding
        Loan        Date Transferred to
#                                           Liquidation as of         Gross Amount
       Number          Liquidation
                                                7/31/2007               7/31/2007
58   [FOIA Ex. 2]             1/16/2003            4.5                           $733,231
59   [FOIA Ex. 2]             7/20/2004            3.0                           $960,386
60   [FOIA Ex. 2]              2/7/2002            5.5                           $881,333
     Total                                                                     $15,154,481
                                                                                                     26


APPENDIX II. SAMPLING METHODOLOGY


Objective 1 – Sampling Methodology

The universe consisted of 7,120 loans with charge-off reviews completed by the
National Guaranty Purchase Center from October 1, 2005 through July 31, 2007.
The population universe was established from charge-off information in SBA’s
Loan Accounting System (LAS). Upon consultation with a statistician, we
selected a statistical random sample of 54 loans to evaluate the liquidation and
charge-off process. In statistical sampling, the projected estimates in the
population universe have a measurable precision or sampling error. The precision
is a measure of the expected difference between the value found in the sample and
the value of the same characteristics that would have been found if a 100-percent
review had been completed using the same techniques.

Sampling precision is indicated by ranges, or confidence intervals, that have upper
and lower limits and a certain confidence level. Calculating at a 95-percent
confidence level means the chances are 9.5 out of 10 that, if we reviewed all of the
loans in the total population, the resulting values would be between the lower and
upper limits, with the population point estimates being the most likely amounts.

Using the Defense Contract Audit Agency’s ‘EZ Quant’ software program, we
determined that based on the universe size and resource limitations, a sample size
of 54 loans was required. We used Interactive Data Extraction and Analysis
(IDEA) software to select the sample records from the universe.

We calculated the following lower limit projections using the Defense Contract
Audit Agency’s ‘EZ Quant’ software program’s difference method at a 95-percent
confidence level.
                                                                    Projected
                                                                    number of
                                     Number of     SBA portion
                                                                   loans in the     Lower limit $
                                     loans with    of questioned
                   Type                                            universe of        overall
                                     questioned        dollars
                                                                    7,120 with       projection
                                        costs       charged-off
                                                                    questioned
                                                                       costs
          Collateral Sale                      5       $217,525              263
          CPC Expenses                         3         $1,520              107
          Offer in Compromise                  1        $23,085                 7
          Repair/Denial                        1       $339,643                 7
          Other Charge-Off &
          Purchase Deficiencies               13       $798,993            1,061
          Total*                              21      $1,380,766           1,979       $22,836,886
         *Two loans had more than one deficiency
                                                                                                                     27


Objective 2 – Sampling Methodology

The universe consisted of 9,143 loans transferred to liquidation on or before July
31, 2006 that were still in liquidation as of July 31, 2007 and had not received a
completed liquidation action by the Center during that timeframe. The population
universe was established from loan information in SBA’s Loan Accounting
System (LAS) and information within the Center’s Herndon Action Tracking
System (HATS).

The universe was separated into four strata for sampling purposes. The division of
the universe strata was based upon liquidation year pre-2001 and post-20016 and
the gross amount of dollars outstanding per loan. Based on resource limitations,
we determined that a sample of 60 loans would be reviewed. The universe and
sample information by strata is presented in the table below.

                                            Strata         SBA share of $          Sample        Sample SBA share
               Universe
                                             Size           outstanding             Size          of $ outstanding
Pre-2001 outstanding liquidations
over $1 million                                      6            $4,041,506                6              $4,041,506
Pre-2001 outstanding liquidations
less than $1 million                             409             $54,300,099               23              $3,233,616
Post-2001 outstanding
liquidations over $1 million                     198           $159,558,398                 6              $5,085,529
Post-2001 outstanding
liquidations less than $1 million              8,530         $1,157,609,519                25              $2,821,329


Totals                                         9,143         $1,375,509,523                60             $15,181,979


In statistical sampling, the projected estimates in the population universe have a
measurable precision or sampling error. The precision is a measure of the
expected difference between the value found in the sample and the value of the
same characteristics that would have been found if a 100-percent review had been
completed using the same techniques.

Sampling precision is indicated by ranges, or confidence intervals, that have upper
and lower limits and a certain confidence level. Calculating at a 95-percent
confidence level means the chances are 9.5 out of 10 that, if we reviewed all of the
loans in the total population, the resulting values would be between the lower and
upper limits, with the population point estimates being the most likely amounts.
We used Interactive Data Extraction and Analysis (IDEA) software to select the
sample records for each strata. We calculated the following lower limit

6
    A date of January 1, 2001 was used to determine whether loans fell into the strata of pre-2001 or post-2001. Loans
    transferred to liquidation before January 1, 2001 are considered pre-2001 loans. Loans transferred to liquidation on
    or after January 1, 2001 are considered post-2001 loans.
                                                                                            28


projections using the Defense Contract Audit Agency’s ‘EZ Quant’ software
program’s difference method at a 95-percent confidence level.

                    Sample                                  Lower Limit    Lower Limit $
Universe Strata              # Overstated   $ Overstated
                     Size                                   # Projection    Projection
Pre-2001
outstanding
liquidations over
$1 million               6              4      $2,734,277              4       $2,734,277
Pre-2001
outstanding
liquidations less
than $1 million         23             21      $2,382,390            309      $14,618,655
Post-2001
outstanding
liquidations over
$1 million               6              4      $2,718,829             55      $18,680,840
Post-2001
outstanding
liquidations less
than $1 million         25             17      $1,269,193          4,239     $196,738,536

Summary
Projection              60             46      $9,104,681          6,034     $323,566,720
                                                                                                     29


APPENDIX III. LOANS WITH LENDER DEFICIENCIES

                    Liquidation Action Deficiencies Not Corrected in
                                      Charge-Off                        Purchase Review
                                                                        Deficiencies Not
    Loan Number                                                                             Totals
                                                                          Corrected in
                                                                           Charge-Off
                                  CPC
                   Collateral               Repair &       Offer in
                                Expense
                     Sale                    Denial      Compromise
                                 Review

    [FOIA Ex. 2]                             $339,643                                        $339,643
    [FOIA Ex. 2]     $12,270                                                                  $12,270
    [FOIA Ex. 2]                                                                    $970         $970
    [FOIA Ex. 2]                                                                  $13,449     $13,449

    [FOIA Ex. 2]                                               23,085                         $23,085
    [FOIA Ex. 2]     $26,150     $4,045                                                       $30,195
    [FOIA Ex. 2]      $5,391                                                      $27,225     $32,616
    [FOIA Ex. 2]                   $726                                                          $726
    [FOIA Ex. 2]    $133,714                                                                 $133,714
    [FOIA Ex. 2]                                                                   $3,680      $3,680
    [FOIA Ex. 2]     $40,000                                                                  $40,000
    [FOIA Ex. 2]                                                                  $12,809     $12,809
    [FOIA Ex. 2]                                                                    $643         $643
    [FOIA Ex. 2]                 -$3,251                                                       -$3,251
    [FOIA Ex. 2]                                                                 $639,717    $639,717
    [FOIA Ex. 2]                                                                  -$3,863      -$3,863
    [FOIA Ex. 2]                                                                  $41,776     $41,776
    [FOIA Ex. 2]                                                                  $12,576     $12,576
    [FOIA Ex. 2]                                                                  $19,754     $19,754
    [FOIA Ex. 2]                                                                  $21,000     $21,000
    [FOIA Ex. 2]                                                                   $9,257      $9,257
      Totals        $217,525     $1,520      $339,643         $23,085            $798,993   $1,380,766
                                                                                                              30



 APPENDIX IV. REMAINING CHARGED-OFF LOANS NEEDING
 RECOVERY
                                                                  Charge-
           Loan                                     Charged                      Deficiency     Questioned
   #                           Borrower                           Off Fiscal
          Number                                      Off                        Summary          Cost
                                                                    Year
   1    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]             $174,132       2007              A             $12,270
   2    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]             $534,110       2007              C                $970
   3    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]              $51,982       2006              C             $13,449
                        [FOIA Ex. 4 & 6]
   4    [FOIA Ex. 2]                                  $51,287        2007           A,B             $30,195

   5    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]              $89,767        2006           A,C             $32,616
   6    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]              $50,577        2006            B                $726
                        [FOIA Ex. 4 & 6]
   7    [FOIA Ex. 2]                                  $38,714        2006             C              $3,680
   8    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]              $87,799        2006             C             $12,809
   9    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]              $48,361        2006             C               $643
                        [FOIA Ex. 4 & 6]
  10    [FOIA Ex. 2]                                 $415,014        2006             B              -$3,251
  11    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]             $267,656        2007             C              -$3,863
                        [FOIA Ex. 4 & 6]
  12    [FOIA Ex. 2]                                 $107,754        2007             C             $12,576
                        [FOIA Ex. 4 & 6]
  13    [FOIA Ex. 2]                                  $52,816        2006             C             $19,754
  14    [FOIA Ex. 2]    [FOIA Ex. 4 & 6]              $33,258        2006             C             $21,000
                        [FOIA Ex. 4 & 6]
  15    [FOIA Ex. 2]                                  $64,292        2007             C              $9,257
        Totals                                     $2,067,519                                      $162,831

Deficiency Type Legend:
    A. Unsupported Collateral Sale
    B. Unsupported CPC Expense
    C. Guaranty Purchase Issues & Charge-Off Issues*

    *Deficiencies related to equity injection, use of proceeds, transcript reconciliation, date of default,
     application of payments to interest, improper refund of the guaranty fee, lender site visits, and
     reconciliation of note receivables.
                                                                                              31


APPENDIX V. LOANS IN LIQUIDATION NEEDING RECOVERY

                                                         SBA Share of
          Loan                                                           Deficiency   Questioned
  #                               Lender                 Outstanding
         Number                                                          Summary        Costs
                                                           Amount
  1   [FOIA Ex. 2]    Manufactures & Trader TR Co             $125,033       A              $670
  2   [FOIA Ex. 2]    One United Bank                          $35,927       B           $26,328
  3   [FOIA Ex. 2]    Peoples National Bank                    $63,290       B           $30,000
  4   [FOIA Ex. 2]    Meridian Bank National Assoc.            $79,622      C,D          $79,622
  5   [FOIA Ex. 2]    Business Loan Center, LLC               $810,518       D          $810,518
  6   [FOIA Ex. 2]    Community First National Bank            $41,697      C,D          $41,697
  7   [FOIA Ex. 2]    Business Loan Center, LLC               $733,231       D          $733,231
  8   [FOIA Ex. 2]    Source BIDCO                            $960,386      A,B          $10,785
  9   [FOIA Ex. 2]    Business Loan Center, LLC               $881,333       D          $881,333
                      Totals                                $3,731,037                $2,614,184

Deficiency Type Legend:
    A. Disallowed Lender Servicing Fees
    B. Liquidation Collections Not Remitted or Correctly Accounted For
    C. Charged Off Without Post-Purchase Review
    D. Material Lender Servicing Deficiencies
33
34
35
36
37
38
39
